. Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




                     INJURY CONTROL




          .. SERVfC't..



                          Richard P. Kusserow
                          INSPECTOR GENERA

         b'''d'3'a
                             NOVEMBER 1991
                        OFFCE OF INSPECTOR GENERA

The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95-452 , as
amended , is to protect the integrty of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Services , the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.


                             OFFCE OF AUDIT SERVICE
. The DIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
  conducting audits with its own audit resources or by overseeing audit work done by others.
 Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and effciency throughout the Department.

                             OFFICE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts crinal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions ,
                         or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recmmendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerability,
and effectiveness' of departmental programs. This report was prepared in the New York
Regional Offce under the direction of Regional Inspector General Thomas F. Tully.       Project
staff included:

Joseph J. Corso Jr , Project Leader
Joseph Benkoski
Lucille M. Cop

Mary Beth Clarke, Headquarters

      '"   '''




Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




                  INJURY CONTROL




             .. SERVrCt..



                            Richard P. Kusserow
                            INSPECTOR GENERA
           ;f1fd:m
                                OEI-02-92-00310
              EXECUTIVE SUMMAR Y

PURPOSE

To determine the nature and extent of possible overlap between the injury control
program administered by the Centers for Disease Control (CDC) and other such
programs within or outside the Department of Health and Human Servces (DHHS).

BACKGROUND

This inspection was requested by the Secretary of DHHS.

The CDC's injury control program is operated by its Division of Injury Control (DIC)
within the Center for Environmental Health and Injury Control. The DIC works to
prevent mortality, morbidity and disability due to injuries outside the workplace, with
assistance from the Secretary s Advisory Committee for Injury Prevention and Control.
The CDC also has primary Federal responsibility for dealing with injuries in the
workplace through its National Institute of Occupational Safety and Health.

The DIC's mission is accomplished through extramural and intramural research
programs and coordination with other Federal, State and private-sector agencies. Its
FY 1991 budget was just over $24 millon , about $16 million of which was used for
funding and admistering extramural injury research and intervention in a wide
variety of areas. Today, injury is the leading cause of death among persons 1- 44 years
old in the United States and the fourth leading cause in the total population
according to the CDC. As a result , injury is seen by CDC as the principal public
health problem in America today.

METODOLOGY

Following preliminary discussions with representatives of CDC and DIC, we conducted
structured personal and telephone intervews with a total of 25 representatives of
Federal and non- Federal agencies and organizations outside DIC and CDC. These
respondents were chosen because most of them represent their agencies and
organizations on the Secretary s Advisory Committee for Injury Prevention and
Control or have close ties to the injury control community. We also collected
documents on the statutory authority of DIC and other public agencies to perform or
fund related research. We examined budget documents from those agencies for the
last few years; reviewed mission statements , grants and annual reports; and identified
and verified the use of procedures to prevent overlap. In addition , we obtained their
perceptions as to whether DIC's injury prevention and control activity overlapped with
their own agency s efforts or with that of organizations other than their own. We
asked whether DIC was carrng out leadership and coordination roles in the injury
control community and how well they were being carred out. Lastly, it should be
noted that it was not our intent to assess the effectiveness of DIC's injury control
program and such perceptions and documents were not gathered.

FIINGS
SOME    OVE EXISTS IN TI               LEGISLATI         AUTORI OF DIC
OTIR FEDERA AGENCI
The legislative authority of DIC spans the general area of injury, while   the
legislative authorities of other agencies call for broad research or research related to
specific subject areas or groups.

TI DIC AN        OTIR FEERA AGENCI AR BOTH WORKG IN
SOME    GENE
The DIC promotes research and intervention in various areas , including suicide and
homicide, family violence, vehicle crashes , alcohol-related injuries , farm-related
injuries , falls among the elderly, head and spinal cord injuries, house fires and
drownings. Other Federal agencies ' research activity includes many of the same areas
in which DIC is also working.

HOWEVER, NO DUPLICATION OF EFFORT WAS FOUN                          WI REGAR
TO SPECIC PROJECT
Although there was not sufficient time to thorougWy review every injury-related
project funded by DIC and the other Federal agencies , there was no duplication of
effort found with regard to specific projects in the documents we received from them.
The other Federal agencies also report that there has been no duplication of effort
with regard to specific projects.

TI DIC PLAYS A COORDINATION AN LEERSHI                            ROLE THT
VALUED IN TI INJUY CONTOL COMM

Documents reviewed , as well as information from respondents , indicate that within the
injury control community, DIC is performing well-received roles in coordinating injury
prevention and control research, and in providing leadership in that community. Most
respondents believe the absence of DIC would have a major and negative impact on
their agencies and on the injury control community in general.
                           TABLE OF CONTENTS


EXECUTE            SUMMARY



INODUCTON ..........................................................................................


  Purose ......................................................................................................

  Background ...........................................................................................

  Methodology .......................................................................................



FIINGS ................................................................................................



APPENDIX A ............................................................................................ .A-
                                INTRODUCTION€
PUROSE
To determne the nature and extent of possible overlap between the injury control
program administered by the Centers for Disease Control (CDC) and other such
programs within or outside the Department of Health and Human Servces (DHHS).€

BACKGROUN
This inspection was requested by the Secretary of DHHS.€

The CDC' s injury control program is operated by its Division of Injury Control (DIC)
as part of the Center for Envionmental Health and Injury Control. The DIC works
to prevent mortality, morbidity and disability due to injuries outside the workplace
with assistance from the Secretary s Advisory Committee for Injury Prevention and
Control. The Committee was established and chartered by the Secretary on October
  , 1988. The CDC also has priary Federal responsibilty for dealing with injuries in
the workplace through its National Institute of Occupational Safety and Health.

The DIC's mission is accomplished through extramural and intramural research
programs and coordination with other Federal , State and private-sector agencies. Its
FY 1991 budget was just over $24 millon , about $16 milion of which was used for
funding and administerig extramural injury research and intervention in a wide
variety of areas. Ths is achieved in part through 37 Injury Control Research Project
Grants , 8 Injury Control Research Centers in universities and 2 research project
program grants. In addition , DIC funds 15 State/local capacity-building grants , 7 injury
surveilance grants and 6 intervention incentive grants. The intramural activities focus
on injury surveilance , technical assistance for investigations of injury outbreaks or
clusters and epidemiologic analysis of priority injury problems.

The   evolvif! verevtion   of   in;wv as a vu     th vroTl
Prior to the 1960s , there was a perception that injuries were caused by accidents
which occurred suddenly and usually unexpectedly. They were seen as random events
and even public health offcials felt that they were caused by carelessness or even
questionable behavior. The evolution of thought since that time has demonstrated
that health care practitioners can use the same epidemiological techniques for injury
control as with infectious diseases. Today, injury is the leading cause of death among
persons 1- 44 years old in the United States and the fourth leading cause in the total
population , according to the CDC. The total lifetime cost to the nation of injury is
estimated by CDC to have been $180 bilion for 1988. Over half the cost comes from
injuries related to motor vehicles and falls.
The recent history of the iniurv control program

In 1983 ,   the Department of Transportation s (DOT) National Highway Traffic Safety
Administration (NHSA) worked with Congress to obtain authorization for DOT to
request a study of trauma by the National Academy of Sciences. The study sought to
determine what was known about injury, what future research needs were and what
the Federal government could do to increase and improve knowledge of injury. The
Committee on Trauma Research of the National Research Council's Commission on
Life Sciences was established in collaboration with the Institute of Medicine to conduct
the study. Its 1985 report Iniury in America stated that injury was the leading public
health problem in America. However, although injuries were responsible for the loss
of more economically productive years of lie than cancer and heart disease combined
the Federal expenditure for research in injury control, about $25 millon in Fiscal Year
1983 , was about one- tenth that for cancer and less than one- fifth that for heart disease
and stroke.

The Commttee concluded that the mortality, morbidity and disabilty associated       with
injury could be reduced if adequate funding, direction and support were given to injury
research and control. The lack of focus of existing research activity and resources was
seen as a major impediment. The Committee said:

                Injury research is fragmented , diffse , and insufficiently
                organied and administered. Resources are not allocated
                on the basis of any overall assessment of need and
                feasibility of achievig new knowledge and technology.
                The potential is high for duplication of effort. There is no
                leadership or oversight to avoid inappropriate duplication.

To remedy this problem , the Committee reco=ended the following:

                A new agency of the federal governent , the Center
                for Injury Control (CIC), should be established in
                the Centers for Disease Control (CDC) to administer
                the planng, solicitation , funding, and evaluation
                of coordinated research and development directed at
                control of injury.

The   develovment and fuinf! of in;ur    control at CDC

In 1986 , Congress responded to the report by appropriating $10 milion for the DOT
to initiate a three' year pilot project to develop injury control programs. Research and
extramural grants were to be coordinated through the CDC. P. L. 99- 649, the Injury
Prevention Act of 1986 ,   amended the Public Health Servce Act (PHSA), officially
placing an injury control program in CDC. Up to $2 miIlon of the $10 milion from
DOT was used to establish the program in CDC, with the remaining funds designated
                                         ---------


  for grants on trauma research. Half of the research fuding was to be made avaiable
  only with the specifc concurrence of NHSA.

 The breakdown of actual funding for injury control from DHHS\CDC and DOT
 budgets coverig Fiscal Years 1986 through 1991 ,   is as follows:

                         FY 1986          $ 1   000 000 DHHS\CDC
                                                785 000      DOT
                         FY 1987          $ 1   279 000 DHHS\CDC
                                                065 000      DOT
                        FY 1988           $ 2   936 000 DHHS\CDC
                                                383 000      DOT
                        FY 1989          $20 777 000 DHHS\CDC
                                             946 000      DOT
                        FY 1990          $22, 660 000 DHHS\CDC
                                                  000      DOT
                        FY 1991          $24 036 000 DHHS\CDC
                                                               DOT
                        TOTAL            $72 688 000 DHHS\CDC
                                             194 000      DOT
                                        $100 882 000

The Injurv Control Act of 1990 (P. L. 101- 558), was passed in November 1990 and
reauthoried funding through FY 1993. Section 393 of the PHSA requires that the
Secretary submit, no later than September 30, 1992 , an injury research activities report
to the Congressional Commttees on Energy and Commerce of the House of
Representatives and Labor and Human Resources of the Senate. The report would€
include inormation regarding the practical applications of research conducted and
funded by DIe.

MEODOLOY
Followig prelimary discussions with representatives of CDC and DIC, we conducted
structured personal and telephone intervews with a total of 25 representatives of
Federal and non- Federal agencies and organiations outside DIC and CDe.
                                                                               These
respondents were chosen because most of them represent their agencies and
organitions on the Secretary s Advisory Commttee for Inury Prevention and
Control , or are members of, or have close ties to, the injury control community.
From the non- Federal sector, the group included 11 respondents representing the
General Motors Research Laboratory, George Washigton University, the University
of Oklahoma, The Jewish HeaIthcare Foundation , Youth Development , Inc. , ICF, Inc.
the National Academy of Science , the Association of State and Territorial Health€
Officials and three Injury Control Research Centers. The 14 Federal respondents€
represent 11 agencies within three Federal departments and the Federal Consumer€
Product Safety Commission. The agencies and Commission are listed in Table 1€
below.€

We collected and reviewed documents on the statutory authority of DIC and other€
public agencies to perform or fund related research. We also examined budget€
documents from those agencies for the last few years; reviewed mission statements
grants and annual reports; and identifed and verified the use of procedures to prevent
overlap.€

In addition ,
           we also obtained the perceptions of both Federal and non- Federal
respondents as to whether DIC's injury prevention and control activity overlapped with
their own agency s efforts or with that of organiations other than their own. We also
asked whether DIC was    carg €   out leadership and coordination roles in the injury
control community and how well they carred them out.

While the individuals representing the non-Federal sector had experience with injury
control activity, they did not always represent organizations directly involved with this
activity. Consequently, the fidings below are sometimes based on fewer than 25
respondents because they either lacked sufficient knowledge to offer an opinion or
some questions did not apply.

Lastly, it should be noted that it was not our intent to assess the effectiveness of DIe's€
injury control program and such perceptions and documents were not gathered.€
    TABLE 1                       FEDERA DEPARTMNTS , AGENCIES AN OPERATING
                                  DIVSIONS CONTACTED AND THEIR ACRONYS
        DEPARTMENT OF HEALTH AN                    HU SERVICES      DHHS€
The A nmini. tration for Chdren and Fames:                          ACF\
The National Center on Child Abuse and Neglect                      NCCAN
                The Public Health Servce                            PHS€
The Health Resource and Servces             Anmini.tration:         HRSA\€
The Maternal and Chid Health Bureau                                 MCHB€
The Health Resources Development Bureau                             HRDB€
The Alcohol, Drg Abuse , and Menta Health                          ADAMHA\
 nmini.trtion:
The National Institute on Alcohol Abuse and                         NIA
Alcoholism€
The National Institute of Mental Health                             NIMH€

The National Intitutes of Health:                                   NIH€
The National Institute on Agig,                                     NIA€
The National Institute of Chid Health and Human                    NICHHD€
Development€
The National Institute of Arhrtis and                              NIASD€
Musculoskeletal and Ski Diseases€
The Indian Health Servce:                                           IHS\€
The Injury Prevention Program                                       IPP€
The Agency for Health Cae Policy and Research                       AHCPR
        DEPARTMNT OF EDUCATION€
The Ofce of Special Education and Rehabiltation Servces:           OSERS\€
The National Institute on Disabilty and                            NIDRR€
Rehabiltation Research€
              DEPARTMENT OF TRSPORTATION                            DOT€
The National Highway Trafc Safety A nmini.tration                  NHTSA
              CONSUMER PRODUCT SAFETY COMMISSION                    CPSC€
                                  FINDINGS€

SOME OVERL EXISTS IN TI LEGISLATI                         AUTORI OF DIC
OTH FEDERA AGENCI

               authoriC wans the f!eneral area of iniwv
Iniurv in America , referenced earlier in this report , states in a prefatory section that
 Injury is the principal public health problem in America today.... " That realization
resulted in the report s recommendation " 00. that a Center for Injury Control (CIC)
should be established as part of CDC. Ths would take advantage of the existing
mission-oriented epidemiologic interests and data-collecting abilities of CDC. " The
legislation which created the injury control program in CDC in 1986 was based largely
upon  IniUlY in America findings and reco=endations.

The CDC\IC has legislative authority to conduct , fund and coordinate research
related to the broad area of injury prevention and control. Part J , Title III of the
PHSA, Sections 391 through 394 , provides statutory language for " Injury ControL"
Sections 391 and 392 require the Secretary, through the Director of the CDC, to:

       conduct, and give assistance to public and non-profit private entities , scientific
       institutions , and individuals engaged in the conduct of, research related to the
       causes , mechanisms , prevention , diagnosis , treatment of injuries , and
       rehabiltation from injuries;

       make grants to public and non-profit private entities (including academic
       institutions , hospitals , and laboratories) and individuals for the conduct of such
       research;

       coIIect and disseminate , through publications and other appropriate means
       information concerning the practical applications of research conducted or
       assisted;

       assist States and political subdivisions of States in activities for the prevention
       of injuries; and

       encourage regional activities between States designed to reduce injury rates.
The   lemlatie authoriti of other af!enci call for broad research or research related to
      ifc sub;ect areas or f!OUTJ


Other Federal agencies outside CDC\IC, which were included in this study, have
legislative authority to conduct or fund research. However , it differs from that of
CDC\IC in that it is either very broadly concerned with the health of the nation or
concerned with particular areas , like highway safety, or to specific groups , such as
children and Native Americans , which may be liked to injury-related research. The
Appendix contains a su=ary of subject areas covered in the legislative authority of
these agencies and lists Fiscal Year 1990 funding related to injury, where the
information was available and where such distinctions could be made. It also
describes each agency s purpose as it relates to specific areas of research activity.


TI DIC AN         OTIR FEDERA AGENCI AR BOTH WORKG IN
SOME GENERA
The DIC promotes research and intervention in various areas , including suicide and€
homicide , famiy violence , vehicle crashes , alcohol-related injuries , farm-related
injuries , falls among the elderly, head and spinal cord injuries , house fires and
drownngs. Table 2 below identifes the injury-related subject areas and foci of other
Federal agencies ' activity in areas in which DIC is also working.



HOWEVER, NO DUPLICATION OF EFFORT WAS FOUN                          WI REGAR
TO SPECIFC PROJECT

Eight of 12 Federal agencies provided materials related to funded research activity, in
response to requests for budget inormation , annual reports and mission statements
covering the period 1985 to present. In most instances , the material concerned FY
1990 activities , and described research projects and grant programs in various formats
and detail , ranging from lists of titles only to comprehensive , multi- page accounts.
Only several of the agencies identified projects specificaIly related to injury. All the
documents were reviewed , but particular attention was given to the smaIl number of
projects designated as injury-related. These were reviewed in detail, along with similar
information provided by DIC. Although there was not sufficient time to thoroughly
review all this material, there was no duplication of effort noted with regard to specific
projects.
 TABLE 2       SUBJECT AREAS AN FOCI OF OTIR AGENCIES€
 SUBJECT AREAS€       AGENCIES€                        FOCI€
VIOLENCE:€           ACF\CCAN€ Prevent and treat family violence€
                                    provide shelter and servces to victims.€
HOMICIDE, SUICIDE€            Combat child abuse and neglect.€
FAMILY AN CHILD€
ABUSE€             HRSA\MCHB€ Prevent injury to children and€
                                    adolescents.€

                     NIHICHH€       Prevent childhood injuries.€

                     ADAM\€         Prevent youth suicide.€
                     NIM€           Research traumatic victimization.€
SUBSTANCE ABUSE€     ADAM\€         Monitor drug abuse and recommend€
                     NIA€           programs to decrease drug abuse.€
                                   The same for alcohol abuse. Identify€
                                   and treat mental disorders. Identify€
                                   and treat antisocial behavior and€
                                   violence.€
TRAUM:€              HRSA\HDB€ Fund trauma centers in States.€
FALLS , AUTO AND€    IHS\IPP€       Examie trends of€
OTHER€                              intentional/unintentional injuries on€
                                    reservations.€

                     NIIA€          Research injuries related to the aging€
                                    process , specifically from falls and€
                                    auto crashes.


                     DOT\TSA€      Maintain a crash database and motor€
                                   vehicle safety records for regulatory€
                                   development; fund contract research.€

                     NIHIASD€       Identify mechanisms of trauma leading€
                     ED\NIDRS€      to injury; study the healing process€
                                    and the use of physical therapy and€
                                    rehabilitation for those with spinal€
                                    cord- related disabilities.€

                     AHCPR€         Improve emergency medical servces.€

OTHER€               CPSC€          Test and regulate the safety of€
                                    consumer products.€
                Providing core funding for eight centers of excellence in injury control
                research at leading universities.€

Al 22 respondents offerig an opinon say DIC facilitates coordination in the injury
control co=unity, and all feel DIC plays this role very well (45 percent) or fairly well
(55 percent).


All 24 respondents offering an opinion report that DIC plays a leadership role in the
injury control community; virtually all believe that DIC plays this role very well (38
percent) or fairly well (58 percent).

Seventeen of 22 respondents (77 percent) who gave an opinion believe that the
absence of DIC would have a signicant and negative impact on their own agency or
organization. Included in this group are 10 Federal and 7 non- Federal respondents.
The remaing five (including four Federal respondents) say there would be minimal
or no impact. Of these four Federal respondents , two represent agencies with very
specific statutory mandates concernng injury to chidren and child abuse. The former
has lited funding to prepare a long range research program to develop interventions
and preventions. The latter has greater funding to provide grants to States for
prevention and treatment programs. The two others include an agency whose
program has yet to be funded and one whose priary        concern   is in improvig clinical
practice and the delivery of health care servces.


Eleven of the 17 feel it would represent a signifcant setback to their injury control
efforts. Among them are four Federal and seven non-Federal respondents , including
those representing three injury control research centers. Among the concerns of the
other six is that the central focus of injury control in the Federal government would be
lost; they cannot do the work DIC was doing for them and would have to go outside
government where the costs would be higher; and relationships in the injury control
community would come apart.

AU 25 respondents believe the absence of DIC would have a major and negative
impact on the injury control community in general.

Various respondents indicate that DIC is a crucial cog in the area of injury control€
and has brought a higher level of awareness concerning injury to the public. Several
recommended that DIC needs to have time to mature and continue its important€
work.
     ..




                                                 APPENDIX A€
                                             €
                                OTHER FEDERA AGENCIES' STATUTORY AUTHORITY€
                                               AND FY 1990 INJURY FUNDING€


                  AGENCY€                                 STATUTE€                               PURPOSE€                   FY 1990€
                                                                                                                            INJURY€
                                                                                                                           FUNDING€
The National Institute of Arthritis and         Public Health Service Act , Title   To conduct and support research€        $17. 6 M
Musculoskeletal and Skin Diseases€              IV, Subpart 4                       and training; the dissemination of
                                                                                    health information with respect to
                                                                                    arthritis and musculoskeletal€
                                                                                    diseases , including sports-related€
                                                                                    disorders.€
The Agency for Health Care Policy and€          Public Health Service Act , Title   To establish broad base of              $3.4 M
Research€                                                                           scientific research , promote
                                                                                    improvements in clinical practice
                                                                                    and in the organization, financing
                                                                                    and delivery of health care
                                                                                    services.€
The Heaith Resources and Services€              Social Securit Act , Title V        To fund maternal and child health        $1. 7 M
AdministrationfThe Maternal and Child Health    Sec. 502 , Paragraph 2B             services through block grants to€
Bureau€                                                                             States; fund research related to
                                                                                    maternal and child health.
The Heaith Resources and Services€              Public Health Service Act , Title   To address the increasing death         Not Yet

AdministrationfThe Heaith Resources             XII€                                rate due to trauma and to               Funded€
Development Bureau                                                                  develop modern systems of
                                                                                    trauma care; grants , cooperative
                                                                                    agreements and contracts wil be€
                                                                                    awarded.€




                                                                 A- 1€
                  AGENCY€                                      STATUTE€                              PURPOSE€                   FY 1990€
                                                                                                                                INJURY€
                                                                                                                               FUNDING€
The Alcohol, Drug Abuse , and Mental Health€       Public Health Service Act ,     Title€ To administer the programs and€        $3. 7 M€
AdministrationfThe National Institute on€          II, Sec. 502- 513; Title III€          authorities relating to alcohol€
Alcohol and Alcoholism€                                                                   abuse and alcoholism.€

The National Institute of Mental€                  Public Health Service Act ,     Title€ To provide a focal point for€         Unable to€
HealthNiolence€                                    V; Title III€                          funding or administering research€    break out€
                                                                                          grants on victims of traumatic€
                                                                                          events , perpetrators of violent€
                                                                                          behavior and issues of law and€
                                                                                          mental health.€
The National Institute of Mental Health/Suicide€   Public Health Service Act ,     Title€ To develop and publish€                $5.4 M€
                                                   XIX ,   Section 504€                   information about causes and€
                                                                                          prevention of suicide and make€
                                                                                          this information available.€
The Indian Health Service€                         Indian Health Care€                    To improve technical capabilties€      Unable€
                                                   Improvement Act of 1976€               in epidemiological analysis€
                                                                                          examine trends in injuries and€       estimate€
                                                                                          evaluate effectiveness of injury€
                                                                                          intervention projects.€
The National Institute on Aging€                   Public Health Service Act€             To conduct and support€                $4. 2 M€
                                                   Subpart 5 ,Sec. 443€                   biomedical, social and behavioral€
                                                                                          research and training relating to€
                                                                                          the aging process.€
The National Institutes of HealthfThe National€    No Specific Statute;€                  To develop a contract program to€       $2 M€
Institute of Child Health and Human€               Requested by Senate Report€            elucidate mechanisms of€
Development€                                       #99-408 to Develop 5 Year€             childhood injury; to develop€
                                                   Research Plan€                         interventions aimed at prevention€
                                                                                          and to evaluate these€
                                                                                          interventions.€




                                                                      A - 2€
            , ,€




                   AGENCY€                              STATUTE€                          PURPOSE€                   FY 1990€
                                                                                                                     INJURY€
                                                                                                                    FUNDING€
Department of Educationrrhe National          Rehabiltation Act , Title II     To provide leadership and             $16- 17 M
Institute on Disabilit and Rehabiltation€                                      support for a comprehensive an€
Research€                                                                      coordinated national program of
                                                                               research regarding the
                                                                               rehabiltation of individuals with€
                                                                               disabilties.€
The Administration for Children and           Child Abuse Prevention€          To create a national center on        Unable to€
Familiesrrhe National Center on Child Abuse   Adoption , and Family Services   child abuse and neglect , an         Break Out
and Neglect                                   Act of 1988€                     advisory board , an inter-agency
                                                                               task force , a national clearing
                                                                               house for information relating to
                                                                               child abuse and provides grants
                                                                               to states for prevention and
                                                                               treatment programs.
Department of Transportationrrhe National     Highway Safety Act of 1966€      To fund highway safety research;€     Unable to
Highway Traffic Safety Administration         Revised April 1990               development of improved               Break Out
                                                                               accident investigation procedures
                                                                               and research to develop
                                                                               appropriate regulations.
Consumer Product Safety Commission            Consumer Product Safety Act      To collect national data on           Unable to€
                                              16 CFR Part 1000; Title XVI      consumer products (including          Break out
                                              Chapter 2 , CFR ,   Commercial   data on injury control) and test
                                              Practices€                       consumer products to regulate€
                                                                               their safety, efficacy and use.€




                                                                A - 3€
     . c€




                 AGENCY€                                STATUTE€                          PURPOSE€                   FY 1990€
                                                                                                                     INJURY€
                                                                                                                    FUNDING€
Department of EducationfThe National€         Rehabiltation Act , Title II€   To provide leadership and€             $16. 17 M€
Institute on Disabilit and Rehabiltation€                                     support for a comprehensive an€
Research€                                                                      coordinated national program of€
                                                                               research regarding the€
                                                                               rehabiltation of individuals with€
                                                                               disabilties.€
The Administration for Children and€          Child Abuse Prevention€         To create a national center on€        Unable to€
FamilesfThe National Center on Child Abuse€   Adoption , and Family Services€ child abuse and neglect , an€         Break Out€
and Neglect€                                  Act of 1988€                    advisory board , an inter-agency€
                                                                              task force , a national clearing€
                                                                              house for information relating to€
                                                                              child abuse and provides grants€
                                                                              to states for prevention and€
                                                                              treatment programs.€


Department of TransportationfThe National€    Highway Safety Act of 1966€     To fund highway safety research;€     Not Broken€
Highway Traffic Safety Administration€        Revised April 1990€              development of improved€                Out€
                                                                               accident investigation procedures€
                                                                               and research to develop€
                                                                               appropriate regulations.€
Consumer Product Safety Commission€           Consumer Product Safety Act€    To collect national data on€          Not Broken€
                                              16 CFR Part 1000; Title XVI,€   consumer products (including€            Out€
                                              Chapter 2 , CFR, Commercial€    data on injury control) and test€
                                              Practices€                       consumer products to regulate€
                                                                               their safety, efficacy and use.€




                                                                A - 3€
